I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

R E A L- A L O M A R, VI C T O R
P etiti o n er
vs.

N o:

2 0- 7 5 4 3

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
A pril 0 1, 2 0 2 1
c c:
J A VI E R A. M O R A L E S- R A M O S
P. O. B O X 3 6 2 6 7 7
S A N J U A N, P R 0 0 9 3 6- 2 6 7 7

